<html>
<title> - THE FUTURE OF THE POST-9/11 GI BILL CLAIMS PROCESSING SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  THE FUTURE OF THE POST-9/11 GI BILL 
                        CLAIMS PROCESSING SYSTEM 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 21, 2010

                               __________

                           Serial No. 111-56

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-224 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                  Subcommittee on Economic Opportunity

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

THOMAS S.P. PERRIELLO, Virginia      JOHN BOOZMAN, Arkansas, Ranking
JOHN H. ADLER, New Jersey            JERRY MORAN, Kansas
ANN KIRKPATRICK, Arizona             GUS M. BILIRAKIS, Florida
HARRY TEAGUE, New Mexico

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.















                            C O N T E N T S

                               __________

                            January 21, 2010

                                                                   Page
The Future of the Post-9/11 GI Bill Claims Processing System.....     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    22
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    22

                               WITNESSES

U.S. Department of Defense, Captain Mark Krause, USNR (Ret.), 
  U.S. Department of Veterans Affairs Program Manager, Space and 
  Naval Warfare Systems Center Atlantic, Department of the Navy..     4
    Prepared statement of Captain Krause.........................    23
U.S. Department of Veterans Affairs, Hon. Roger W. Baker, 
  Assistant Secretary for Information and Technology, Office of 
  Information and Technology.....................................     6
    Prepared statement of Mr. Baker..............................    25

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunities, Committee on Veterans' Affairs, to 
      Mark Krause, U.S. Department of Veterans Affairs Program 
      Manager, Space and Naval Warfare Systems Center Atlantic, 
      letter dated January 25, 2010, and responses...............    29
    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Eco- nomic Opportunities, Committee on Veterans' 
      Affairs, to Hon. Roger W. Baker, Assistant Secretary for 
      Information and Technology, U.S. Department of Veterans 
      Affairs, letter dated January 25, 2010, and VA responses...    31


                  THE FUTURE OF THE POST-9/11 GI BILL
                        CLAIMS PROCESSING SYSTEM

                              ----------                              


                       THURSDAY, JANUARY 21, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:13 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Perriello, Adler, 
and Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen.
    The Committee on Veterans' Affairs, Subcommittee on 
Economic Opportunity, Oversight Hearing on the Post-9/11 GI 
Bill Long-Term Solution will come to order.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and that written 
statements be made part of the record.
    Hearing no objection, so ordered.
    Some of those in attendance may recall that our first 
hearing of 2009 was on the implementation of the Post-9/11 GI 
Bill. This was followed up by supplemental hearings that sought 
to ensure the U.S. Department of Veterans Affairs' (VA's) 
progress on the short- and long-term information technology 
solutions.
    I hope that it is clear to our panelists before us today 
that by making this our first hearing of 2010, we demonstrate 
the continued importance of the subject at hand.
    I am sure my colleagues will agree that the current delays 
in processing education claims are simply unacceptable. A 
number of my colleagues not on this Committee have spoken to me 
directly or have written to me documenting experiences of 
student veterans that they represent who have suffered some of 
the consequences of the delays in processing these claims.
    While the Administration shares my concerns regarding these 
shortcomings, more has to be done. However, the blame doesn't 
rest solely with the VA. The processing of a single claim 
requires multiple steps involving multiple parties and computer 
systems, all of which must work in sync with one another in 
order for veterans to receive his or her benefits in a timely 
manner. These computer difficulties demonstrate the need for a 
fully functional Long-Term Solution.
    Furthermore, the Subcommittee's staff recently visited the 
VA's Regional Processing Center and Education Call Center in 
Muskogee, Oklahoma, and some concerns have been raised from 
that visit. They include the closure of Education Call Center 
hours on Thursdays and Fridays. This provides veterans only 3 
days to call for assistance on education matters. While we 
understand the value of using Call Center staff to process 
education claims, the VA can have the Call Center open 5 days a 
week by dispersing the same work hours throughout the week.
    Second, the availability of temporary employees after 
September 2010 is a concern. While we all would like to have a 
fully operational Long-Term Solution by December of this year, 
the reality of the limited time frame to implement this complex 
Information Technology (IT) system may require the VA to push 
back its deadline. Ensuring that VA has the trained personnel 
to continue to process education claims and field incoming 
calls can help avoid further delays in receipt of education 
benefits.
    The third concern involves VA's current policy limiting 
Education Call Center operators from taking action on education 
claims outside of that particular region. The current policy 
requires that claims originating outside of the Muskogee region 
must be referred to the appropriate regional office (RO) for 
action. We have been informed that by authorizing these 
operators, who are responsible for taking all education benefit 
calls, to make simple updates to a veteran's file would result 
in faster service and avoid long wait periods for action.
    And finally, the visit to the Education Call Center raised 
equipment concerns that create dropped calls and require 
constant maintenance that I hope the VA will address quickly.
    I look forward to hearing from our distinguished panelists 
participating in today's hearing, specifically on how the VA is 
addressing these concerns and making progress in implementing 
its Long-Term Solution that seeks to streamline the way 
education claims are currently processed. I would now like to 
recognize the Ranking Member, Mr. Boozman, for any opening 
remarks he may have.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 22.]

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you, Madam Chair.
    The successful development and implementation of the new 
computer system to manage the Post-9/11 GI Bill is vital to 
delivering accurate and timely education benefits, not just for 
the Chapter 33 but for all of the education programs.
    Before we begin, I would like to echo some of the things 
that the Chair just spoke in regard to, the three issues that 
they had some concern about in the Muskogee RO. I have had the 
opportunity to go to Muskogee, and they do a great job. They 
work awfully hard. And I think it is an operation that we can 
be very proud of.
    One of the things that came about while they were there in 
meeting with managers and frontline claims and Call Center 
workers, the staff expressed their concern, as was mentioned, 
that the Call Center was closed 2 days a week to allow the 
workers to assist in processing education claims. While the 
staff readily agreed that the diversion of some labor hours to 
processing claims, they suggested that perhaps spreading those 
processing labor hours over the work week would allow the Call 
Center to remain open. As a result of that discussion, local VA 
management forwarded a request to the VA's Office of Field 
Operations to make the changes suggested. And again, I think 
therein lies our concern.
    And I think we have a little bit of concern about, maybe 
about those people not being empowered to, perhaps, being on 
the ground to actually determine what they feel like is best 
within a degree and, as these things come up, to respond and 
have some flexibility to solve these kind of problems.
    The Call Center operates from 7:00 to 5:00 central time, 
but no one answers calls coming outside those hours. That means 
that anyone living outside the continental U.S. has a very 
limited window in which to contact the Call Center. Given the 
high rates of blocked and dropped calls, I think it is probably 
fair to assume that if you are a beneficiary living in the 
Pacific and European areas, which there are, a bunch of people 
in that category, I think they probably have a significant 
problem of getting assistance from the Call Center.
    Again, I think that perhaps the solution might be to 
stagger the working hours of a few employees to cover the wider 
range of the day. If that takes additional overtime or 
incentive pay based on the staff's discussions with the Call 
Center employees, the extra hours of pay or pay differential 
would be welcome.
    Another thing that came up was that the staff said that, 
every call they take regarding the Post-9/11 GI Bill, it is not 
uncommon at all to hear complaints about the difficulty in 
getting through to the Call Center. And as I have said earlier, 
I think that, in working those things out, I do think that it 
would be to everyone's benefit if the Muskogee team had the 
flexibility to kind of adjust things depending on how things 
were going so that they could be as efficient as possible.
    Regardless, closing the Call Center 2 days per week when 
there are alternatives to meet the VA's claims production needs 
and provide customer service I think are out there at the same 
time.
    So, again, that is something that we need to perhaps talk 
about at a later date. But we just kind of throw that out, 
realizing, and again, it is sad that as we have these kinds of 
hearings, we are talking about the negative things or things 
that we see that perhaps need to be improved. On the other 
hand, I very much compliment the people who are working really 
hard in Muskogee at the Call Center to do the very best job 
that they can do.
    I guess what I am saying is, if there is something that we 
can do helping you or if you can look or if there are things we 
can do to improve that, I think that we would be very happy to 
assist you in doing that.
    So thank you very much, and I yield back.
    [The prepared statement of Congressman Boozman appears on 
p. 22.]
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would like to welcome our panelists testifying before the 
Subcommittee today.
    Joining us on our panel is Mark Krause, U.S. Department of 
Veterans Affairs Program Manager (Space and Naval Warfare 
Systems Center Atlantic), U.S. Department of Defense (DoD); and 
the Honorable Roger Baker, Assistant Secretary for Information 
and Technology, Office of Information and Technology (OI&T), 
U.S. Department of Veterans Affairs. Mr. Baker is accompanied 
by Mr. Jan Frye, Deputy Assistant Secretary for the Office of 
Acquisition, Logistics and Construction, U.S. Department of 
Veterans Affairs; and Mr. Keith Wilson, Director of Education 
Service, Veterans Benefits Administration (VBA) with the U.S. 
Department of Veterans Affairs.
    Gentlemen, welcome. We look forward to your testimony.
    Captain Krause, we will start with you.
    We welcome you back, and you are now recognized for 5 
minutes.

STATEMENTS OF CAPTAIN MARK KRAUSE, USNR (RET.), U.S. DEPARTMENT 
 OF VETERANS AFFAIRS PROGRAM MANAGER, SPACE AND NAVAL WARFARE 
     SYSTEMS CENTER ATLANTIC, DEPARTMENT OF THE NAVY, U.S. 
   DEPARTMENT OF DEFENSE; AND HON. ROGER W. BAKER, ASSISTANT 
SECRETARY FOR INFORMATION AND TECHNOLOGY, OFFICE OF INFORMATION 
     AND TECHNOLOGY, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY JAN R. FRYE, DEPUTY ASSISTANT SECRETARY, OFFICE 
OF ACQUISITION, LOGISTICS, AND CONSTRUCTION, U.S. DEPARTMENT OF 
    VETERANS AFFAIRS; AND KEITH WILSON, DIRECTOR, OFFICE OF 
   EDUCATION SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

         STATEMENT OF CAPTAIN MARK KRAUSE, USNR (RET.)

    Captain Krause. Good afternoon, Chairwoman Herseth Sandlin, 
Ranking Member Boozman, and Members of the Subcommittee. I 
appreciate the opportunity to appear before you today to 
discuss the current status of the Chapter (CH) 33 Long-Term 
Solution. My testimony will address the key milestones and 
dates, current progress of the Long-Term Solution, capabilities 
of the planned releases and the project challenges.
    The Chapter 33 Long-Term Solution key milestone dates and 
milestones are as follows: March 31, 2010, plan date for 
Release 1; June 30, 2010, plan date for Release 2; September 
30, 2010, plan date for Release 3; December 31, 2010, plan date 
for Release 4.
    Progress of the Chapter 33 Long-Term Solution: During the 4 
months since our last meeting with the Subcommittee, the 
Chapter 33 team has accomplished the following: Completed a 
rules-based engine locating all Chapter 33 business rules in 
one area separate from the application logic, consistent with 
service-oriented architecture principles; established the 
development and production hosting capabilities in a secure 
cloud computing environment with secure network connections to 
VA legacy systems; successfully integrated subject matter 
experts from the VA's field operations into the development 
process to ensure the Chapter 33 Long-Term Solution application 
will best support the veterans claims examiners' (VCEs'), 
processing requirements and priorities; completed a complex 
data interface with VA/DoD Identity Repository, called VADIR, 
application.
    Our near term goals include deploying an early Chapter 33 
Long-Term Solution Release 1.0 in March 2010 to a limited 
number of VCEs, or claim examiners, where original claims can 
be moved to and processed in the Long-Term Solution automated 
rules-based environment.
    Explanation of the system being developed: There are four 
Veterans Affairs regional processing offices responsible for 
processing thousands of claims for veterans seeking to use 
Chapter 33 educational benefits. The adjudication process 
relies on highly trained VCEs, or claim examiners, to determine 
eligibility, calculate entitlement, and process the award. This 
requires them to interface multiple disjointed systems and 
perform significant manual entry.
    The objective of the Chapter 33 Long-Term Solution is to 
support new legislative requirements with a Web-based tool that 
will provide automation and standardization to the adjudication 
process. This will significantly reduce the time to process a 
claim and the number of VCEs required. Additional benefits will 
be efficiency, accuracy, predictability and reliable results. 
Additionally, the tool will support the need for transparent 
data exchange and reporting while being flexible enough to 
adapt to future changes in policy and law.
    The capability of the planned Chapter 33 Long-Term Solution 
releases are, Chapter 33 Long-Term Solution Release 1.0 will be 
deployed to incorporate the core features necessary to process 
new claims to include tuition payments, housing allowances, 
reenlistment incentives, books and fees. The primary objective 
of Release 1.0 will be to validate application performance, 
deployment strategies, and expected changes to business 
operations. A key system interface will be eligibility data 
from VADIR, the VADIR application.
    Release 2.0 will begin the transition from the current 
Chapter 33 interim solution front-end tool (FET) and job aid, 
enabling the claim examiners to completely migrate off the 
Chapter 33 interim solution. Release 2.0 will expand the 
capabilities of the earlier release by enabling VCEs, or claim 
examiners, to amend awards and process transfer of entitlement 
claims.
    Release 3.0 will improve claims processing efficiency by 
automating the complex Chapter 33 financial transaction/
authorization process currently required to authorize payments 
for claims. This will be achieved by establishing a system 
interface with the VA's financial accounting system.
    The feedback from Releases 1 through 3 will determine the 
requirements and scope of Release 4.
    The challenges being overcome include translating the 
complexity of the Chapter 33 benefits adjudication into a 
business rules approach that will enable the system to quickly 
adapt to legislative interpretations, changes and priorities. 
Number two, it will include access to the limited number of 
subject-matter experts in claim adjudication processes and 
policies; identifying the myriad number of scenarios for 
amending/changing award amounts; converting data from the VA 
interim solution because of independent workarounds and 
interpretations at RPOs; and five, the complexity and 
inconsistency in systems architectures and data across multiple 
VA and DoD systems.
    Training requirements: A Chapter 33 Long-Term Solution team 
is currently developing a Web-based interactive training system 
to teach VCEs how to use Long-Term Solution application to 
process Chapter 33 claims. The training system will include 
self-paced tutorial material and hands-on processing of 
simulated Chapter 33 claims; 508 compliant learning system to 
assess individual VCE's progress and demonstrate competency 
using the LTS system; classroom training materials to teach the 
RPO training coordinators how to administer the Web-based 
system to the claim examiner community; and on-site support 
during the initial RPO deployment.
    We are confident that the release of the Chapter 33 Long-
Term Solution will be completed by December 31, 2010.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or any of the other Members 
of the Subcommittee may have.
    [The prepared statement of Captain Mark Krause appears on 
p. 23.]
    Ms. Herseth Sandlin. Thank you, Mr. Krause.
    Mr. Baker, you are now recognized.

                STATEMENT OF HON. ROGER W. BAKER

    Mr. Baker. Thank you and good afternoon, Chairwoman Herseth 
Sandlin, Ranking Member Boozman, and Members of the 
Subcommittee.
    I appreciate the opportunity to appear before you today 
with my colleagues from both VA and SPAWAR to discuss the 
status of the Post-9/11 GI Bill. My testimony will address the 
current status of education claims, steps taken to reduce the 
pending inventory and prepare for the spring enrollment period, 
and the status of the implementation of the Post-9/11 GI Bill 
Long-Term Solution.
    Since May 1st of 2009, VA has received over 1.5 million 
claims for education benefits under all education programs, and 
we processed approximately 1.4 million claims. VA has issued 
over $1.3 billion in Post-9/11 GI Bill benefit payments to 
approximately 180,000 individuals and their educational 
institutions.
    Claims processing time frames have risen due to the 
increased workload from the Post-9/11 GI Bill. As we are all 
aware, many veterans enrolled in schools during the fall of 
2009 encountered unacceptable delays with respect to their 
receipt of their benefits. I believe it is important to convey, 
on behalf of Secretary Shinseki and every member of the VA 
team, our apologies for those delays and our understanding of 
the impact, that the impacts of those delays on veterans are 
unacceptable.
    We believe we have identified and resolved the causes of 
many of those delays, and that the results of the spring 
enrollment will be substantially improved over those of the 
fall. While we continue to receive fall semester enrollment 
certifications even today, there are currently under 1,500 fall 
enrollment certificates remaining to be completed, with those 
remaining requiring further information from the student before 
they can be completed.
    VA has taken numerous steps to reduce the number of pending 
claims and prepare for the spring enrollment period. I detail a 
number of those steps in my written statement, so I won't go 
over them here. But as a result of those improvements, VA has 
been able to increase its daily completions of Chapter 33 
enrollment certificates from an average of 1,800 per day we 
experienced during October 2009 to the nearly 7,000 per day or 
more we have been able to achieve during January, a very 
substantial improvement.
    As of January 13th, VA had received Post-9/11 GI Bill 
spring enrollments for just over 111,000 veterans, of which 
80,000 had been processed. We took aggressive actions to 
eliminate the backlog of fall enrollments and were using all 
available resources to ensure veterans receive their education 
benefits from the spring terms accurately and on time.
    To help ensure that veterans who enroll in the spring term 
receive their benefits on time, VA set a goal, and one that we 
are confident that we can achieve, to process any enrollment 
certification that we receive before January 19th, I guess 2 
days ago at this point, for payment by February 1st of 2010. 
And we believe we are on track to meet that goal.
    On November 9, 2009, the Office of Information and 
Technology delivered the third and final phase of the interim 
claims processing solution, and that is the one we are using 
today to process, which provides increased functionality and 
additional automation for processing Post-9/11 GI Bill claims. 
This phase provides the functionality for processing both 
amended awards and overlapping terms. And I am sure we will 
have substantial discussion of what amended awards are here 
during this, as they are part of the complexity of the Long-
Term Solution.
    So, moving to the Long-Term Solution, as you know, we 
partnered with SPAWAR to develop an end-to-end claims 
processing solution to utilize rules-based industry standard 
technologies. And that is our long-term strategy for 
implementing both the Post-9/11 GI Bill and other education 
claims processing as we move forward.
    The Post-9/11 GI Bill includes numerous eligibility 
entitlement criteria and contemplates benefit determinations 
that can best be made using rules-based technology that 
requires minimal human intervention.
    The automated system, the long-term automated system, is 
scheduled to be released in four phases. Release 1 is to 
replace the current functionality of the interim solution and 
eliminate the need for external job aids. Release 2 will 
provide an automated data feed for both claim and veteran 
information. Release 3 will provide automated data feeds into 
the VA financial processing systems. And Release 4 will provide 
a veteran self-service interface to view the status of claims.
    While Release 1 remains scheduled for deployment on March 
31st of 2010, this release has been changed to a limited pilot 
release, which will deliver the ability to complete original 
claims and many other capabilities. We plan to deploy Release 1 
to a limited set of claims processors to restrict the impact 
and training for the user community.
    VA expected Release 1 to also include functionality for a 
number of items, including amended awards. The modification 
from the reduced functionality of Release 1 is caused by a 
substantially increased appreciation of the complexity of 
amended awards. As our subject-matter experts worked with the 
SPAWAR team, new software requirements were identified, and it 
became clear those requirements could not be incorporated into 
the March 31, 2010, milestone requirement.
    Under the program management accountability system that we 
introduced last June, missing that milestone date would have 
substantial consequences. And so we made a decision, in 
conjunction with VBA, our VBA customers, to allow the delivery 
of reduced functionality in order to make the milestone date.
    Most importantly, because this will be the first delivery 
of software for the Long-Term Solution, I believe it is 
critical that real users begin to use this software for 
production work, because that is the only way we can assure 
ourselves that the software that is being delivered is an 
acceptable product and something we can rely on for the long 
term. I don't mean to imply any doubt in the product. As a 
software person, I just am saying, the only way I know exactly 
what I am getting is when real users are using it. And so I am 
looking forward to that March 31, 2010, release and putting it 
in front of real users.
    While complete functionality for the subsequent releases is 
yet to be determined, VA anticipates Release 2, to be delivered 
on June 30, 2010, will include the remaining features necessary 
to migrate the claims processors off the interim processing 
solution. VA, OI&T, and SPAWAR will conduct meetings the week 
of January 25 to finalize the functional requirements for 
Releases 2, 3 and 4 of the Long-Term Solution. We still 
anticipate the successful delivery of all functional 
requirements to the Long-Term Solution by December of 2010.
    Madam Chairwoman, this concludes my statement. I believe 
that Mr. Wilson will now go through the PowerPoint slides that 
you had asked us to prepare to address some of the direct 
questions.
    Mr. Wilson. Good afternoon.
    Going directly to slide two, the slides that we have 
prepared provide amplification of the information that has been 
covered by Mr. Krause and Mr. Baker.
    Slide two talks about the specifics of the requirements 
that we have of the Long-Term Solution and, by extension, our 
SPAWAR partners: Obviously, processing of original and 
supplemental awards, both claims from veterans as well as 
transfer-of-entitlement claims, Frye scholarship claims, et 
cetera; automated calculation of those awards, and I would add 
to that, not just automated calculation but automated 
processing as well, as it is one thing to do the manual 
calculations but another to pay the benefit as well; retrieval 
of demographic and service information; very importantly, 
interfaces to our payment systems, so that we can properly 
account for the money being expended; and, vitally important 
for many of our customers, a self-service interface as well, a 
Web-based self-service interface allowing our customers to go 
online and retrieve a lot of the information that they 
currently have to call us or e-mail us to receive.
    Slide three talks specifically about Release 1 of the Long-
Term Solution and what is being delivered and what is not being 
delivered. First of all, on the left-hand side, the 
functionality that is going to be provided does allow 
processing of original Post-9/11 GI Bill claims. It provides 
automated calculation of the payment awards, the overlapping 
terms of intervals for amended awards, et cetera. It does not 
provide for automated processing. It provides for automated 
calculation of the award amounts in those categories, as well 
as also providing demographic information. It pulls information 
from VADIR, which is our DoD data source.
    On the right-hand side, the delayed functionality. What we 
will not get is conversion of existing records in the interim 
solution into the Long-Term Solution. We will not be able to 
process transfer-of-entitlement cases, Frye scholarship cases, 
supplemental awards, anything involving a kicker, a Chapter 33 
kicker or a supplemental kicker, and claims containing amended 
awards.
    In other words, what Release 1 is going to give us the 
capability of doing is processing any new original claim that 
comes to us that does not require any modification. Any 
individual whose claim we have already processed in the interim 
solution stays processed in the interim solution during Release 
1. So, from a user perspective, there is not a large category 
of cases that we will be able to work with Release 1, but it 
does give us, as Mr. Baker indicated, the ability to begin 
using the application itself and begin getting expertise on 
that.
    The long-term deployment schedule, this has been talked 
about a little bit. Slide four provides a summary of the 
specific types of functionality we will get in each of the 
phases. I have already talked about Release 1. Release 2, from 
a user perspective, Release 2 gives us efficiencies. That is 
the first point at which we are going to start gaining 
productivity. And the reason is, Release 2 gives us the 
functionality of auto populating fields as well as auto 
calculation of award amounts. So there will be a lot of 
replacement of the manual multiple-system typing of information 
in. That will be replaced by the automated data feeds that we 
will receive from the schools, from the students when they 
enroll, as well as automated DoD information coming into the 
system. So Release 2 really is a game changer from a user point 
of view. That will give us some good efficiencies.
    Release 3 will provide that interface into our payment 
systems. And from a user perspective, what that means is that 
the process that we currently have in place that takes about 
200 people to complete the fiscal transactions, the 
administrative work to actually get the payments out the door, 
will be replaced by that phase, that Release 3 functionality. 
And then Release 4 will provide those user interfaces that I 
talked about. There will be a Web-based ability to go on, both 
self-serve, as well as to find out the status of, for instance, 
enrollment certs coming in from schools. Students will be able 
to go online and find that information out directly.
    Slide five talks about VA future staffing. The key message 
here I believe is that VA will be making determinations on how 
to gear down staffing based solely on the successful deployment 
of the functionality. As you are aware, we hired 530 additional 
people originally. We augmented that with 230 additional 
people. We have additional people brought in to do fisc-auth 
transactions, in other words the administrative transactions to 
pay the benefits. We will begin reducing the workforce, subject 
to the successful deployment of the Long-Term Solution, 
beginning in fiscal year 2011.
    Slide six provides some updated information concerning 
exactly where we are with the spring enrollment. These are the 
same figures on this slide as Mr. Baker mentioned in his 
testimony. I do have updated information. As of this morning, 
VA has received enrollment certifications for 123,887 students. 
VA has processed 103,843 of those enrollment certs for the 
spring semester.
    We have taken a lot of actions over the last many months as 
we have learned from our experiences in the fall term. The 
bottom line is we have increased our staffing, claims 
processing staff, from approximately 800 individuals at the 
beginning of the fall enrollment to 1,200 claims examiners 
currently. That includes contract support for working some of 
our simpler non-Chapter 33 claims, redirecting 200 American 
Recovery and Reinvestment Act (ARRA) hires from five different 
regional offices around the country, implementing significant 
streamlining policy and procedures, obviously providing the 
advance pay mechanisms and continuing to utilize the 230 
additional staff that were hired under ARRA.
    Slide seven in some ways talks again about the requirements 
of the Long-Term Solution. The importance of the Long-Term 
Solution is its flexibility, providing that self-service 
functionality that students need, providing the flexibility for 
a rules engine that will allow us to quickly adapt to new 
changes in legislation, payment rates, et cetera, and 
developing all of this in a service-oriented architecture that 
will be flexible as we continue to expand the system. 
Obviously, what we are trying to do is minimize human 
intervention as much as possible.
    Slide eight--unfortunately, I should have removed slide 
eight. It is a repetition of the earlier release dates that I 
talked about. I don't believe there is anything particularly 
new on that slide.
    That concludes my portion of the presentation. We would be 
happy to take any questions.
    [The prepared statement of Mr. Baker, and the referenced 
slides, appear on p. 25.]
    Ms. Herseth Sandlin. Thank you.
    Thank you all for your testimony.
    Let me start with a statement, Mr. Wilson, that you made. 
On slide four, the Long-Term Solution Release 2.0 scheduled for 
June 30, 2010, that allows for the automated data feeds from 
the schools. You said this is a game changer from the user 
point of view.
    For Mr. Baker or Mr. Wilson, I assume that the goal for the 
Long-Term Solution Release 2.0 is to have that operational for 
processing fall 2010 semester claims, correct?
    Mr. Baker. Yes, that is correct.
    Ms. Herseth Sandlin. That being the case, Mr. Baker, 
according to your testimony, Release 1.0 has been modified to 
reduce its functionality because of this new software 
requirement that you recently identified.
    Mr. Baker. Yes, the increased complexity, yes.
    Ms. Herseth Sandlin. Why did it take until just recently to 
identify the need for the new software requirement?
    Mr. Baker. Actually, what occurred is, as the subject-
matter experts and the software people were sitting down 
together to walk through, what does an amended authority really 
mean, what are the intricacies, the decision trees required for 
an amended award, they kept uncovering, if you will, more and 
more depth of what was required in the software and amended 
awards. And it went beyond the estimates they had originally 
had for what it was going to take to do amended awards.
    So as we determined that the amount of work required to 
make that March 31st date exceeded the amount possible to 
accomplish, we had to determine what would come out of that 
release.
    Ms. Herseth Sandlin. How confident are you that the June 
30th date deadline can be met in light of how important that 
deadline is to the fall semester?
    Mr. Baker. We are pretty confident of that. As you can 
imagine, we have had some significant focus on that as well. 
What we have talked about is, what is it possible to do in the 
June 30th time frame? We know that we can get everything in 
that was originally scheduled for Release 1. And Release 1 was 
intended to be the replacement for the current system, so a 
functional replacement. If we had delayed Release 1 until about 
mid May, we would have had a fully functional release. There is 
about that much additional work that was added. So we know that 
will come in. And we will be releasing that functionality in 
incremental pieces along the way to mid May and, if VBA 
determines it is appropriate, allowing the users to work with 
the increased functionality in that time frame and then adding 
those automated feeds that are critical as we ramp up to June 
30th.
    So we have a reasonably good confidence in the June 30th, 
and if you don't mind, I will elaborate on that just a little 
bit further. The thing that I have to tell you that I am 
pleased with in the slip, and I know this is going to sound a 
little strange, is that in December, this project team was able 
to tell us that they had a problem with meeting the March 31st 
date. That is not a usual thing inside of VA projects. Usually 
you hear about it March 30th, you know, that it is going to 
happen on March 31st. That gave us time to make rational 
decisions about, do we want to allow the slip, or do we want to 
force the delivery date so that we see the software? And what 
is the impact of that on subsequent releases? And so that is 
why we have a reasonable degree of confidence that we are going 
to have what we need on June 30th for a more automated system 
going into the fall semester. That has exactly been our focus 
with that June 30th release.
    Ms. Herseth Sandlin. Well, I would request that, as the 
project team--with all the internal milestones you are trying 
to meet, and you have been very helpful to our Committee and to 
our Committee staff in sharing information at every step of 
this process. But in light of the problems that we have had 
with the interim solution, in light of the importance of this 
Long-Term Solution, we need to stay on top of this day by day, 
week by week. If there is any other problem that is revealed to 
your project team, we just need to be made aware of some of 
that ongoing work because of the importance of these deadlines 
in meeting the benefits needs for the students and 
understanding what more you might need from us. This is a high 
priority, not only among this Committee, but the colleagues 
that we hear from who have student veterans that are 
experiencing problems.
    We want to make sure that we are able to answer questions 
immediately for them, which will lead to some of the other 
questions that we are going to have about what is happening in 
the spring semester. But we really want to work closely with 
you to ensure these targets are met; we are ready to go in the 
fall. For example, do you have a target date for getting the 
new software requirements then? When are you supposed to have 
that? Since that was going to possibly slip until May, you have 
reduced the functionality so you can stick to the March 31st 
timeline. When will the new software requirements that were 
uncovered in December be ready? What is the target date to 
integrate them after Release 1.0 in March? If you can answer, 
great. But that is one thing I think we need to have.
    Mr. Wilson. Let me try to take a shot at it, and Mr. Baker 
probably can do a more articulate job than I, but from an 
operational perspective, from a non-IT perspective, I look at 
it this way. We provided the functional requirements for what 
we needed in the Long-Term Solution at the beginning. That has 
been laid down. But when you look at those functional, 
requirements, in some ways it is like an onion. You know what 
you have in front of you, but as you peel it back, there is 
more and more inside. So as the users are sitting down with the 
programmers and they are saying, first of all, they are saying, 
we need to be able to account for interval pay. They understand 
that, but as they get into that, they have to understand what 
the mechanics are that are involved with interval pay. And 
those discussions occur on a regular basis because of the agile 
development process. They are constantly going around and 
around working on those things, moving on to the next stage.
    Mr. Baker. I think, directly to your question, I believe we 
have those detailed requirements now. It was, as we were 
putting those specifically down, we determined that there was 
more there than could be met for March 31st. But we know that 
short, what we call sprints, additional sprints, will get those 
done after the March 31st and deliverable after the March 31st 
date. That is why we believe that all of those requirements 
that would have gone into the first release that we originally 
scheduled for March 31st, it is about mid May that they will be 
able to have walked through all of those things.
    Now, I am going to look at Mr. Krause and see if I can make 
certain that we are in agreement on this one.
    Captain Krause. Yes ma'am, Madam Chairwoman, the 
requirements, the bow wave of requirements that we saw in the 
beginning of December are going to be completed by June 30th in 
Release 2. This is a good news story. If we had done this the 
traditional way, the waterfall way, where you get all your 
requirements up front and you just start plugging away at the 
plan, this would have been a 2-year slip, a 1- to 2-year slip, 
having hundreds of requirements show up a few months before you 
are getting ready to deploy.
    But that is not what we did. We have an agile methodology. 
We do 2 week sprints, and we were able to recover. It looks 
like we are going to do a 3-month functionality slip. That is 
unheard of in a major software project. So this is good. A 
limited release is industry best practice. The big bang, I know 
you have seen other examples of a big bang strategy with 
software releases. That usually doesn't go very well. So a 
limited release is a proven industry best practice, where we 
will ring out the application; we will refine the production in 
deployment processes and production support mechanisms; and we 
will be able to gauge the real world impact on the users of the 
data sources and legacy systems. So this is going to really be 
good, and it will make the June 30 deployment of Release 2 much 
easier. So this is good-good, win-win stuff I think.
    Ms. Herseth Sandlin. Okay. You have alleviated some of my 
concerns. Although I don't know, is the onion fully peeled yet?
    Captain Krause. It is not, but a large majority of it is.
    Ms. Herseth Sandlin. You answered one of the questions I 
had for you, Mr. Krause, which was that these are limited 
releases.
    Captain Krause. Release 1 is a limited release.
    Ms. Herseth Sandlin. Are all the releases limited?
    Captain Krause. No. Release 2 will be to all the VCEs, if 
you will, the veterans claim examiners.
    Mr. Baker. Release 2 will be a full replacement of what we 
are using right now for functionality. We will no longer be 
using the old interim solution. We will be fully on to the new 
Long-Term Solution.
    Captain Krause. And there will be a transition where the 
users will have to transition off that. That may take a few 
weeks. You can't just say, okay, turn off your computer; now 
use this one.
    Ms. Herseth Sandlin. That will lead to some other questions 
I have about the training, but I do want to recognize the 
Ranking Member for his questions.
    Mr. Boozman. Thank you, Madam Chair.
    Captain Krause, in regard to Release 3, is there any way at 
all to get that done in time for the fall 2010 semester?
    Captain Krause. Release 3 is, and this is good news, too, 
is that VA, the financial accounting system folks, the people 
that maintain that application, have stepped up to the plate 
and said that interface belongs to us; we are going to do the 
lion's share of that work. And they have. So a lot of that, 
that question would have to be answered by someone that is 
doing the financial accounting system. But they have stepped up 
to the plate. We are partnering with them. And I don't know if 
they can increase the--I don't know the answer to that 
question, but I think we as a team can find that out.
    Mr. Baker. Let me give you a very direct answer to that. 
This team has been highly accurate, from my view, in what they 
can tell me about what is going on. One of the things that we 
are going to offer to do with your staffs is start bringing 
them in and talking about the monthly project plans that we 
get. They are very, very good. I would be very reticent to tell 
you that we can move up functionality. We have been asked that 
several times in the past, and the answer is, we are doing 
about what we can do to make this deliver.
    The good news is, as Captain Krause says, they are doing 
very short bursts of work verifying that and then moving on to 
the next piece, so much as all of us would like to move it up. 
The other thing that I will tell you is that we will do that 
release on September 30th and make that available to Education 
Service to determine whether they want to install it. One of 
the things, as IT people, we have to be sensitive to on the 
business side is, what is the impact of installing a new 
release, especially on a date like September 30th, which is 
right in the middle of the peak for the fall semester? And so 
we will at that point in time know all the training required, 
all the benefits, from a processing time, they will gather all 
of the intricacies of doing the change and be able to make a 
business decision of, does it make sense to install this on 
September 30th, or does it make sense to put it in at a 
different point in time?
    I think all those things have to factor in. Right now, 
given the fact that we have just experienced a reduction in 
functionality, I really hate using the word ``slip,'' but I 
think I will go ahead and do it, I wouldn't want to then try 
and say, how do we do more? How do we bring things back in?
    I am focused on, and I think everybody here sees that we 
are focused on March 31st, June 30th, and December 2010. Those 
to me are the hardest dates in there. The September date, while 
important, is the one that I think we leave up to VBA to 
determine when they want to install it.
    Mr. Boozman. Captain Krause, I have three daughters, and 
they help me with my iTunes and get songs, legally, not any 
other way. But I guess what I am saying is, is that, I can text 
and this and that, but using some technology can be a bit 
challenging. On the progress of the CH 33 Long-Term Solution in 
your testimony, will you explain to me the first two bullet 
points?
    Captain Krause. What page is that on, sir?
    Mr. Boozman. Page 2, where it starts, ``completed a rules-
based engine locating all CH 33 business rules.''
    Captain Krause. Is this under the section under the 
progress or the milestone?
    Mr. Boozman. Under the progress.
    Captain Krause. Progress. Essentially this is the question 
about the secure cloud computing environment. And actually, you 
are using a cloud right now. If you have an e-mail account with 
Google or Yahoo or one of the e-mail or even your music that 
your daughters help you download, you have to go to a cloud to 
get it. The cloud essentially is maintained by the service 
provider, and it has the applications and the data in it. So, 
in our case, we have gone to a commercial provider where our 
applications and data will be stored and maintained, and we 
don't really have to think or worry about the infrastructure. 
That is not really our concern.
    We rent--no, we don't rent. We lease that service. We 
purchase a service from this commercial provider. It is a 
hosting service. And so another way of explaining cloud 
computing, it is an application hosting service instead of 
something we buy or maintain. And so it is very scaleable. And 
essentially all you have to worry about is connecting to the 
cloud. You don't have to worry about the details inside the 
cloud. So that is kind of a real simple way of describing cloud 
computing.
    And in this particular case, they have given us a segmented 
cloud of our own for the VA that specifically complies with the 
VA security requirements, pays attention to personal 
identifiable information, which is sensitive data like your 
Social Security number, that you don't want exposed. Those 
kinds of protections this cloud environment gives us in this 
situation that is maintained for us. So that is the second 
bullet.
    Mr. Baker. If I could, I just need to put a point as the 
security head for VA and the IT. We have sent the folks out and 
determined this is as secure as if we were processing it in one 
of our own data centers. There is a lot of security around 
this. So I want to assure people there is not an issue with 
that.
    Captain Krause. And Mr. Baker I think has the final sign-
off on that solution, too, so we stay very close with him on 
giving briefs on what the status of that is.
    And sir, you asked about the third bullet.
    Mr. Boozman. Just the first two.
    Captain Krause. Okay, the first two. Again, the rules-based 
engine is essentially an engine where you can input the rules 
and essentially update the software--in the old way of 
thinking, if you made a change to software, you would have to 
go in and change all the code, do regression testing, test the 
whole application. And it could take several months, if not 
years, to do it.
    In this application, the vision eventually is for Mr. 
Wilson's folks to have access to the rules-based engine, and 
when he comes up with a rule, they come out with a Frye 
amendment or some other change. His folks go into the Web, 
change the rules engine, and it automatically is implemented in 
the software without having to go in and change the application 
code. So that is kind of what service-oriented architecture, 
that is one of the benefits of service-oriented architecture 
(SOA), is you can reuse code and you can go in and make changes 
on the fly that are immediately implemented.
    So that is why we are laying the foundation for this 
project on a SOA-based foundation, which may be painful now, 
but in the long run, it will avoid years of software changes 
that are not going to be required. We will be able to do it 
very immediately.
    Mr. Boozman. Good. Thank you very much. One other thing, 
this came up at the Call Center when the staff was down 
visiting. It appeared--well, what seems to be happening is that 
if a veteran calls with an issue and the employee sees a simple 
fix to the solution; in other words, it comes into the Call 
Center, they could go in and dig around and figure out what was 
wrong, and yet unless the call came from the jurisdiction of 
the Muskogee center, they really couldn't fix the problem. So 
is that--I guess what we are asking is if that is really--is 
there a way perhaps for those very simple things that--is there 
a way to do that instead of fixing it, then having to send a 
request to another center someplace, and then that kind of 
stacking up there until they get to it, does that make sense?
    Mr. Wilson. It does make sense. And the short answer is, 
yes, that capability exists. When we set up the National 
Education Call Center, we did staff the Education Call Center 
with a certain number of veterans claims examiners to be able 
to address specifically those situations. So I do have as a 
task following this hearing to find out the specifics I need to 
provide a full answer. But right now, the Education Call Center 
does have that capability.
    Mr. Boozman. Okay. Good. I appreciate that. Like I said, 
that is a little thing, but it does seem like it might be 
something that might make things a little bit more efficient. I 
think what you are going to do for us, Mr. Baker, in the sense 
of updating us periodically with your briefings, I think that 
is really excellent, and we appreciate you being willing to--I 
think that will just help us as we go along with the process.
    So thank you very much, Madam Chair.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    A question for any of you. I think when we were talking 
about the Release 1.0 versus Release 2.0, is Release 2.0 pretty 
much fully supplanting Release 1.0? How long do you anticipate 
it is going to take to train the veterans claims examiners in 
each of the releases?
    Captain Krause. In the testimony, I talked about our 
strategy for training the veterans, if you will, using folks 
on-site.
    Ms. Herseth Sandlin. Training veterans to use it.
    Captain Krause. On training the veterans claims examiners, 
you are right. We haven't done this before. SPAWAR folks have 
not trained VCEs before. All the training now has been done 
inside of VA. So I don't know that we have a feel for that yet. 
I think we will have a feel for that once we do the limited 
release. I think we will have a better feel for it.
    The things that I mention on page 5 of the testimony are 
things that are ongoing right now. But I think if you can go to 
the Web and you can actually do your training online and do 
simulated claims and if you have an on-site person to help you, 
I think it--I don't know that we have an estimate to determine 
that.
    Mr. Wilson. The training that is going to be used for the 
Long-Term Solution is different than the way we have trained 
people in the past in that integrated into the application 
itself is self-paced training modules. So those individuals 
will be able to use the application itself to train. It will 
have use cases, et cetera, in it. So we would expect that to be 
a more efficient process than gathering people together in 
classrooms, preparing training material, et cetera, et cetera.
    What I can tell you is the training for the interim 
solution, the initial training for the interim solution was 
about 40 hours per person, about a work week per person. We 
would expect this initial training to be something less than 
that, but we don't have yet exactly defined what that less 
would be at this point.
    Ms. Herseth Sandlin. Well, that will be important to pull 
together and to share with us after Release 1.0. Because while 
meeting the technical requirements of the system, you know the 
personnel training requirement could cause a slip, in terms of 
meeting the needs of the veterans when they need it as we get 
ready and into the fall semester.
    Mr. Baker. Part of the reason for the June 30th release 
date is to make certain that we have plenty of time to do the 
training to make certain that people are really up to speed. I 
mean, clearly, one of the issues in the fall was we had a 
brandnew law, brandnew system, lots of new folks. And bringing 
them up to speed was one of the issues. They know--the people 
are there. They are trained. They know the law. They know the 
process now. We won't have those issues. But it is a new 
system, and we know we are going to need training time on this.
    Ms. Herseth Sandlin. Captain Krause, it sounds, as you 
described it, in terms of this kind of service that there is a 
significant degree of flexibility so that if Congress chooses 
to modify this benefit in any way, that we have a flexible 
system to work with. We don't have to start from scratch, and 
we don't have an old legacy system and the restrictions that 
imposes on us to be able to make legislative changes to modify 
benefits and then can't meet the expectation of the delivery of 
those benefits. We want to make sure that it is flexible in the 
future. While you have described the flexibility it offers to 
set it up, after the system is established, what happens? I 
mean, the relationship here continues, or is the VA somehow 
going to have the in-house technological expertise to go in and 
make some of the changes, given the flexibility of the system 
that, Captain Krause, you described the system would provide? I 
mean, is VA going to be able to do that?
    Captain Krause. In my opinion, I think so. The people that 
I have met that work in the VA, they have some really highly 
competent IT technical experts that could easily do that. 
Eventually we will be transitioning this system over to a VA 
data center to be managed by the VA, but I am confident that 
they can. They have SOA experts, service-oriented architects, 
experts that are working closely with us, that we are working 
closely together. And I think there will be the cross 
pollination there by the time it is deployed.
    Ms. Herseth Sandlin. Okay.
    Any thoughts.
    Mr. Baker. I think the logical thing is to expect a 
transition. I don't think any of us expect that on December 
31st, it will be all VA and no SPAWAR on this. Because while it 
is rules-based, I think the best way to think of rules-based 
is, in between natural language and programming, there is an 
area. And we talk about training. We are going to want to make 
certain that the subject matter experts in the Education 
Service really understand what they are doing when they change 
those rules. And so there will be support on that.
    Ms. Herseth Sandlin. I am sure you would appreciate if 
Congress knew what we were doing when we changed the rules.
    Mr. Baker. That is really what education is doing, is 
reflecting Congress's will.
    Ms. Herseth Sandlin. So we want to make it easier. Nice 
answer.
    We are going to work to share information because there are 
some very important pending bills, some of which we have had a 
chance to discuss, have hearings about, that we already have 
found agreement to try to change and support. The new benefit 
is very complex, but there will be changes made. We want to 
make sure that we are sharing information; we have an 
understanding, so that when we do make those changes, we are 
easing the path, not complicating it.
    Mr. Baker. Just to be very clear, implementing a rules-
based engine does not guarantee that every time there will be 
no programming. It greatly increases the probability that we 
can change something without having to say, it will take us 6 
months and 15 programmers to do that.
    But given the range of things that Congress might decide 
that it wants to do with a program such as this, with a benefit 
such as this, there is no way to anticipate everything that 
could possibly occur. I say that as the person that is going to 
have to implement these things after SPAWAR is no longer 
involved with it.
    Ms. Herseth Sandlin. I have some questions here on the Call 
Center. Mr. Boozman has already directed some of his questions 
to you on that, as well as sort of workforce issues here to 
sort of elaborate on the PowerPoint on page 5, but I will 
submit those to you in writing.
    I just want to spend the rest of our time, a few more 
moments on the still-pending claims for the fall semester of 
last year and the spring semester of 2010. I know you gave us 
the updates on the numbers here.
    Mr. Baker, I think you said there are 1,500 remaining 
claims for the fall 2009 semester, and that, for the bulk of 
those, more information is needed from the student. What kind 
of information? The student has the responsibility of providing 
some information, but is there any way, in light of the fact 
that these are pending claims for last semester, that we can 
expedite this? What kind of additional information do you need 
from the student?
    Mr. Baker. I am going to ask Mr. Wilson to answer that one.
    Mr. Wilson. It will generally fall in a couple categories. 
First of all, the 1,500 number, we are down to about somewhat 
less than 1,000 now.
    Ms. Herseth Sandlin. Is that certificates of merit, or is 
that payments?
    Mr. Wilson. These are payments. We are specifically talking 
about fall payments.
    Ms. Herseth Sandlin. So all the certificates of eligibility 
for last fall, there is nothing pending there.
    Mr. Wilson. No, that is not correct.
    Ms. Herseth Sandlin. Is it less than 1,000 pending 
payments?
    Mr. Wilson. Of payments. I am talking strictly about 
enrolled students, individuals we know are enrolled for the 
fall, that had not received payment yet.
    Ms. Herseth Sandlin. Is it payment for tuition? Is it 
payment for housing?
    Mr. Wilson. Depending on the case, whatever entitlement 
they are eligible for, no payment has gone out on those to 
either the school or, if it is due to the veteran, the housing 
or books stipend had not gone out. There could be information--
first of all, every individual in this category has been 
contacted by VA, and we have been in contact with them to let 
them know specifically what is needed.
    It could be information that is lacking concerning service 
verification from the Department of Defense. It could be 
information from the schools. It could be that the student did 
not fill out the required information on the application. 
Unfortunately, it would be a case-by-case specific situation. 
It could be that the school is waiting to submit the enrollment 
information to us because the student may not have completed 
some kind of requirement at the school. We would be happy to 
look into it further, but all I have right now is just broad 
categories of those situations.
    Ms. Herseth Sandlin. I think we do need to look into it 
further. I appreciate that every one of them has been 
contacted, but as you said, it is case by case.
    Is service verification from DoD, the student's 
responsibility?
    Mr. Wilson. No, that would be our responsibility.
    Ms. Herseth Sandlin. Again, I think we need more 
information so we can clear the decks as soon as possible.
    Mr. Wilson. I understand. I am happy to do that.
    [The following was subsequently received by the VA:]

          VA contacted students and schools to receive required claim 
        and enrollment documents, and all of the 1,000 claims have been 
        processed. VA continues to receive enrollments for both spring 
        and fall terms. VA is now processing payments for all Chapter 
        33 claims within 7 to 10 days of receipt and consistently 
        completing more claims per week than received.

    Ms. Herseth Sandlin. Regarding spring 2010. I appreciate 
you taking us through some of the steps that you have taken; 
where you are with the numbers. You have bumped up the number 
of claims examiners to deal with some of that. Some of these 
will relate to the questions I will submit in writing with 
regard to the personnel issues in terms of the temporary 
workers, who you are going to keep, when you start losing 
temporary employees, et cetera.
    I think that, Mr. Baker, you had said it wasn't out to the 
schools, being a notification, right, that anything received by 
January 19--let me find where that question is.
    Mr. Baker. That is correct.
    Ms. Herseth Sandlin [continuing]. Would be processed by 
February 1, right?
    Mr. Baker. Yes.
    Ms. Herseth Sandlin. What has been the response from the 
schools thus far? Did you get a significant number of 
enrollment certifications after that letter was sent out a 
couple of days ago?
    Mr. Wilson. I don't know that we have had enough time to 
determine the response from the letter. What I can tell you is 
last week we received 115,000 enrollment certs from schools, so 
we are beginning to get in that highest volume period. We will 
probably top out the 1st week of February in terms of the 
volume of incoming work, and then it will decline fairly 
rapidly from there.
    Ms. Herseth Sandlin. So you have said to those schools, 
those 115,000 that came in last week, will all be processed by 
February 1.
    Mr. Wilson. Yes, ma'am. February 1 if they are due payments 
on February 1.
    Ms. Herseth Sandlin. Okay. Do you have any other questions?
    Mr. Boozman. I am sorry, Madam Chair. I had just one other 
thing real quick, and this refers back to the staff visit. You 
guys, we need to keep them at home so that we won't make your 
work more difficult.
    But when they were out there, they requested a report 
detailing the workload and resources needed to meet VA 
strategic goals for the education programs through next 
September.
    I guess the question is when we might expect that report. 
And that is important so that we can accurately reflect as we 
do our views and estimates. If we have that information, then 
we can try and figure what kinds of resources we need to 
request to help you get the backlog worked out. Again, I think 
we can be helpful to you in that way, but we have to understand 
what is going on.
    Mr. Wilson. Understood. I can commit to you that we will 
have an answer concerning when we will have that information to 
you, this week. We are still working out some, I guess, 
``modeling,'' for lack of a better term, concerning what--when 
the claims will be in. We feel, as Mr. Baker indicated, very 
comfortable that we can meet the February 1 deadline that we 
put out. Once we get to that point and we believe we have 
achieved that, then we can look more effectively at the 
resource issues and address perhaps some of the Call Center 
issues, et cetera.
    Mr. Boozman. Well, again, thank you guys for being here. We 
do appreciate you and your staffs and all that you guys 
represent. I know that you are working really very, very hard, 
and it is just everybody working together try to go sort this 
out, giving you the resources that you need. We have a great, a 
great program, but we have to figure out how to administer it.
    Like I said, we appreciate your hard work. Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I just have one question that I will ask on behalf of both 
of us. Since we sent the VA a letter together, November 12 of 
last year, we are just wondering if you could provide an update 
to us, Mr. Wilson, as to whether you have implemented any of 
the recommendations that Mr. Boozman and I made. Could you 
speak to that?
    Mr. Wilson. Yes. Unfortunately, I don't have the specifics 
here. I will be happy to provide it for the record.
    [The VA subsequently provided the answer in response to 
Question #8 in the Post-Hearing Questions and Responses for the 
Record, which appears on p. 33.]
    Ms. Herseth Sandlin. Okay. Yes, if you could get back to 
us, just so we know which recommendations you have acted on, 
because these were made in light of the problems in the fall 
that we hope to avoid in the spring. We thought we had some 
good ideas. So let us know, if you didn't implement some of 
these, what the justification was.
    I think that is going to wrap us up, but I really do 
appreciate the testimony and the presentations.
    Before we adjourn the hearing today, I do want to echo Mr. 
Boozman's opening remarks with regard to the work done by VA 
employees at the Muskogee Regional Processing Center and the 
Education Call Center for their service to our Nation's 
veterans and their dependents. I know Mr. Wilson that we will 
work with you and Ms. Ruben, to address some of the issues that 
we have raised here today.
    The VA employees there, their strong commitment to our 
veterans is one that we all share on this Subcommittee. I know 
that the staff appreciated the opportunity to be there more 
recently. As Mr. Boozman said, he has been there previously as 
well.
    We will continue to work to make sure that these dedicated 
employees have the resources that they need, that you have the 
resources as leaders in your organizations and departments, 
that you need to reduce the backlog of the pending education 
claims to provide timely customer service. There are existing 
authorities should be utilized for the benefit of the veterans 
as the first priority.
    We thank you for your service to our Nation's veterans, and 
for your testimony today.
    The hearing stands adjourned.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned.]




















                            A P P E N D I X

                              ----------                              

         Prepared Statement of Hon. Stephanie Herseth Sandlin,
            Chairwoman, Subcommittee on Economic Opportunity
    Some of those in the audience may recall that our first hearing of 
2009 was on the implementation of the Post-9/11 GI Bill. This was 
followed up by supplemental hearings that sought to ensure VA's 
progress on the short- and long-term information technology solutions. 
I hope that it is clear to our panelists before us today that by making 
this our first hearing of 2010, we demonstrate the continued importance 
of the subject at hand.
    I'm sure my colleagues will agree that the current delays in 
processing education claims are unacceptable. While the Administration 
shares my concerns regarding these shortcomings, the blame does not 
rest solely with the VA. The processing of a single claim requires 
multiple steps involving multiple parties and computer systems, all of 
which must work in-sync with one another in order for a veteran to 
receive his or her benefits in a timely manner. These computer 
difficulties demonstrate the need for a fully functional Long-Term 
Solution.
    Furthermore, the Subcommittee staff's recent visit to the VA's 
Regional Processing Center and Education Call Center in Muskogee, 
Oklahoma has raised some concerns. They include:

    <bullet>  The closure of Education Call Center hours on Thursdays 
and Fridays provides veterans only 3 days to call for assistance on 
education matters. While we understand the value of using Call Center 
staff to process education claims, the VA can have the Call Center open 
5 days per week by dispersing the same work hours throughout the week;
    <bullet>  Second, the availability of temporary employees after 
September 2010. While we all would like to have a fully operational 
Long-Term Solution by December 2010, the reality of the limited time 
frame to implement this complex IT system may require the VA to push 
back its deadline. Ensuring that VA has the trained personnel to 
continue to process education claims, and field incoming calls, can 
help avoid further delays in receipt of education benefits;
    <bullet>  The third concern involves VA's current policy limiting 
Education Call Center operators from taking action on education claims 
outside of the Muskogee region. The current policy requires that claims 
originating outside of the Muskogee region be referred to the 
appropriate Regional Office for action. We have been informed that by 
authorizing these operators, who are responsible for taking all 
educational benefit calls, to make simple updates to a veterans file 
would result in faster service and avoid long wait periods for action; 
and
    <bullet>  Finally, the visit to the Education Call Center raised 
equipment concerns that create dropped calls and require constant 
maintenance which I hope VA will address quickly.

    I look forward to hearing from our distinguished panelists 
participating in today's hearing, specifically on how the U.S. 
Department of Veterans Affairs is addressing these concerns, and making 
progress in implementing its Long-Term Solution that seeks to 
streamline the way education claims are currently processed.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman,
    Ranking Republican Member, Subcommittee on Economic Opportunity
    Good afternoon. Madam Chair, the successful development and 
implementation of the new computer system to manage the Post-9/11 GI 
Bill is vital to delivering accurate and timely education benefits, not 
just for Chapter 33, but for all the education programs.
    Before we begin, I would like to address three other issues that 
affect delivery of education benefits to our veterans and are easily 
solvable. The first two are issues involving the operation of the 
National Call Center in Muscogee.
    Our staffs visited the Regional Processing Office and the National 
Call Center in Muscogee last week. They met with managers and frontline 
claims and Call Center workers. While meeting with management, the 
staff expressed their concern that the National Call Center was closed 
2 days per week to allow the workers to assist in processing education 
claims. While the staff readily agreed that diversion of some labor 
hours to processing claims they suggested that spreading those 
processing labor hours over the work week would also allow the Call 
Center to remain open. As a result of that discussion, local VA 
management forwarded a request to the VA's Office of Field Operations 
to make the changes suggested and therein lies my concern: Why does it 
take a suggestion from congressional staff to raise such a commonsense 
issue and why do those responsible at the local level need to get 
permission from central office?
    Second, the Call Center operates from 7 a.m. to 5 p.m. central time 
with no one to answer calls coming outside those hours. That means 
people living outside the continental U.S. have very limited windows in 
which to contact the Call Center. Given the high rates of blocked and 
dropped calls, I suspect beneficiaries living in the Pacific and 
European areas have little chance of getting assistance from the Call 
Center. Again, the solution is simple . . . stagger the working hours 
of a few employees to cover a wider range of the day. If that takes 
additional overtime or incentive pay, based on the staffs' discussions 
with Call Center employees, the extra hours or pay differential would 
be welcome.
    Madam Chair, my staff says that every call they take regarding the 
Post-9/11 GI Bill includes complaints about the difficulty getting 
through to the Call Center. The way VA is managing Call Center 
operations defies logic and decisions on working hours should be left 
to the Muscogee management team. Regardless, closing the Call Center 2 
days per week when there are alternatives that meet VA's claims 
production needs AND provide customer service at the same time, I 
suppose that is a subject for the future, but given the challenges 
facing VA, the Department does not need to be making their own lives 
more difficult by mismanaging its operations and I hope they will 
reconsider how they are operating the Call Center.
    Madam Chair, I look forward to today's testimony and yield back.

                                 <F-dash>
        Prepared Statement of Captain Mark Krause, USNR (Ret.),
          U.S. Department of Veterans Affairs Program Manager,
            Space and Naval Warfare Systems Center Atlantic,
           Department of the Navy, U.S. Department of Defense
    Good afternoon, Chairwoman Sandlin, Ranking Member Boozman, and 
Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the current status of the Chapter 33 Long-
Term Solution (LTS--Chapter 33 of Title 38, United States Code). My 
testimony will address the key milestones and dates, current progress 
of the Long-Term Solution, capabilities of the planned releases, and 
project challenges.
CH 33 LTS Key Milestones and Dates are as follows:

    <bullet>  March 31, 2010--Planned date for Release 1.0
    <bullet>  June 30, 2010--Planned date for Release 2.0
    <bullet>  September 30, 2010--Planned date for Release 3.0
    <bullet>  December 31, 2010--Planned date for Release 4.0
Progress of the CH 33 Long-Term Solution
    During the 4 months since our last meeting with the Subcommittee 
the CH 33 team has accomplished the following:

    <bullet>  Completed a rules-based engine locating all CH 33 
business rules in one area separate from the application logic 
consistent with Service-Oriented Architecture (SOA) principles.
    <bullet>  Established the development and production hosting 
capabilities in a secure cloud computing environment with secure 
network communications to VA legacy systems.
    <bullet>  Successfully integrated subject matter experts from the 
VA's field operations into the development process to ensure the CH 33 
LTS application will best support the Veterans Claim Examiners' (VCEs') 
processing requirements and priorities.
    <bullet>  Completed a complex data interface with the VA/DoD 
Identity Repository (VADIR) application.
Near-Term Goals

    <bullet>  Deploying an early CH 33 LTS Release 1.0 in March 2010 to 
a limited number of VCEs where original claims can be moved to and 
processed in the LTS automated, rules-based environment.
Explanation of the System Being Developed
    There are four Veterans Affairs Regional Processing Offices (RPOs) 
responsible for processing thousands of claims from veterans seeking to 
use the CH 33 educational benefits. The adjudication process relies on 
highly trained VCEs to determine eligibility, calculate entitlement, 
and process the award. This requires them to interface multiple 
disjointed systems and perform significant manual entry.
    The objective of the Chapter 33 LTS is to support the new 
legislative requirements with a Web-based tool that will provide 
automation and standardization to the adjudication process. This will 
significantly reduce the time to process a claim and the number of VCEs 
required. Additional benefits will be efficiency, accuracy, 
predictability and reliable results. Additionally, the tool will 
support the need for transparent data exchange and reporting while 
being flexible enough to adapt to future changes in policy and law.
Capabilities of the Planned CH 33 LTS Releases
    CH 33 LTS Release 1.0 will be deployed to incorporate the core 
features necessary to process new claims to include tuition payments, 
housing allowances, re-enlistment incentives, books and fees. The 
primary objective of Release 1.0 will be to validate application 
performance, deployment strategies, and expected changes to business 
operations. A key system interface will be eligibility data from VADIR.
    Release 2.0 will begin the transition from the current CH 33 
interim solution front-end tool and job aid, enabling the VCEs to 
completely migrate off the Chapter 33 interim solution. Release 2.0 
will expand the capabilities of the earlier release by enabling VCEs to 
amend awards and process transfer of entitlement claims.
    Release 3.0 will improve claims processing efficiency by automating 
the complex CH 33 financial transaction/authorization process currently 
required to authorize payments for claims. This will be achieved by 
establishing a system interface with the VA's Financial Accounting 
System (FAS).
    The feedback from Release 1.0 through 3.0 will determine the 
requirements and scope of Release 4.0.
Implementation Challenges
    The challenges being overcome include (1) translating the 
complexity of the CH 33 benefits adjudication into a business rules 
approach that will enable the system to quickly adapt to legislative 
interpretations, changes, and priorities; (2) access to the limited 
number of subject matter experts in claim adjudication, processes, and 
policies; (3) identifying the myriad number of scenarios for amending 
(changing) award amounts; (4) converting the data from the VA interim 
solution because of independent workarounds and interpretations at 
RPOs; and (5) the complexity and the inconsistency in systems 
architectures and data across multiple VA and DoD systems.
Training Requirements
    The CH 33 LTS team is currently developing a Web-based, interactive 
training system to teach VCEs how to use LTS application to process 
Chapter 33 claims. The training system will include (1) self-paced 
tutorial material and hands-on processing of simulated Chapter 33 
claims, (2) 508 compliant, learning management system (LMS) to assess 
individual VCEs progress and demonstrate competency using the LTS 
system, (3) classroom training materials to teach the RPO training 
coordinators how to administer the Web-based system to the VCE 
community, and (4) on-site support during the initial RPO deployment.
    We are confident that the release of the CH 33 LTS will be 
completed by December 31, 2010.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or any of the other Members of the 
Subcommittee may have.

                                 <F-dash>
               Prepared Statement of Hon. Roger W. Baker,
          Assistant Secretary for Information and Technology,
   Office of Information and Technology, U.S. Department of Veterans 
                                Affairs
    Good afternoon, Chairwoman Herseth Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the status of the Post-9/11 GI Bill. My 
testimony will address the current status of education claims, steps 
taken to reduce the pending inventory and prepare for the spring 
enrollment period, and the status of the implementation of the Post-9/
11 GI Bill Long-Term Solution.
Current Status
    On May 1, 2009, VA began accepting applications to determine 
eligibility for the Post-9/11 GI Bill. On July 7, 2009, we started 
accepting enrollment certifications from school certifying officials 
for veterans utilizing their Post-9/11 GI Bill benefits for the fall 
term, and began processing claims for payment. Since May 1, 2009, we 
have received over 1.5 million claims for education benefits under all 
education programs, and have processed approximately 1.4 million 
claims. More than 389,000 veterans have applied for certificates of 
eligibility under the Post-9/11 GI Bill. VA has provided decisions with 
respect to approximately 346,000 of these veterans. VA has issued over 
$1.3 billion in Post-9/11 GI Bill benefit payments to approximately 
180,000 individuals and their educational institutions.
    Claims-processing time frames have risen due to the increased 
workload from the Post-9/11 GI Bill. For fiscal year 2009, the average 
time to process all education benefit claims took 26 days for original 
claims and 13 days for supplemental claims. For this fiscal year, our 
average processing time is 59 days for original claims and 26 days for 
supplemental claims. Original applications under the Post-9/11 GI Bill 
are taking an average of 61 days to process, while enrollment 
certifications are taking an average of 38 days.
Fall Enrollment
    As you are aware, many veterans enrolled in schools during the fall 
of 2009 encountered unacceptable delays with respect to receipt of 
their benefits. I believe it is important to convey, on behalf of 
Secretary Shinseki and every member of the VA team, our apologies for 
those delays and our understanding that the impacts of those delays on 
veterans are unacceptable. We believe we have identified and resolved 
the causes of many of those delays, and that the results for the spring 
enrollment will be substantially improved over those of the fall. The 
three primary contributors to the fall processing delays were:

    1.  Substantially longer time to process each claim than expected, 
caused by the rudimentary IT tools available in the interim solution;
    2.  Startup problems including delays in interim solution 
functionality that caused us to fall behind;
    3.  Insufficient staffing levels to compensate for the shortfalls 
caused by 1 and 2.

    Although we continue to receive fall-semester enrollment 
certifications even today, there are currently under 1,500 enrollment 
certificates remaining to be completed, with the remaining certificates 
requiring further information from the affected students before they 
can be completed.
Spring Enrollment
    VA has taken numerous steps to reduce the number of pending claims 
and prepare for the spring enrollment period. As a result of these 
improvements, VA has been able to increase its daily completions of 
Chapter 33 enrollment certificates from the average of 1,800 per day we 
experienced during October to the nearly 7,000 per day we have been 
able to achieve during January. These improvements include the 
following:

    <bullet>  On October 28, 2009, VA awarded a 90-day contract to 
Affiliated Computer Services in London, Kentucky to provide claims 
processing support for non-Post-9/11 GI Bill claims. This effort allows 
VA to focus resources on the more complex Post-9/11 GI Bill claims. As 
of January 8, 2010, the contractor has processed over 51,500 claims, 
and has been instrumental in helping VA reduce its pending workload.
    <bullet>  VA continues to utilize the 230 term employees hired 
through the funding provided by Congress under the American Recovery 
and Reinvestment Act (ARRA). In addition, we implemented a mandatory 
overtime policy at the four Regional Processing Offices (RPOs), 
requiring all employees to work 3 additional days per month.
    <bullet>  In an additional effort to reduce the workload and allow 
the RPOs to divert resources to other areas, we are utilizing 200 ARRA 
employees at five VA satellite offices in addition to the 230 term 
employees to authorize Post-9/11 GI Bill payments. The employees work 7 
days a week based on the workload.
    <bullet>  On November 9, 2009, VA's Office of Information and 
Technology (OI&T) delivered the third and final phase of the interim 
claims processing solution, which provides increased functionality and 
additional automation for processing Post-9/11 GI Bill claims. This 
phase provides the functionality for processing both amended awards and 
overlapping terms. Amended awards include changes in a student's actual 
charges for tuition and fees and reduced or increased course loads.
    <bullet>  We have implemented policies to streamline the entire 
claims process based on case reviews and identifying duplication of 
efforts and redundant or unneeded development.
    <bullet>  Because veterans were not receiving their benefits 
timely, VA began issuing advance housing-allowance payments to veterans 
on October 2, 2009. As of January 11, 2010, VA made advance payments to 
over 113,000 veterans, totaling approximately $330.2 million. Out of 
this total number of advance payments made, approximately 76,000 
veterans eligible for the Post-9/11 GI Bill received approximately 
$226.5 million.

    Although VA continues to receive and process fall enrollments, we 
are also focusing on the significant number of spring enrollments that 
we are now receiving for all education programs. As of January 13, VA 
has received Post-9/11 GI Bill spring enrollments for 111,470 veterans, 
of which 80,464 have been processed. We took aggressive action to 
eliminate the backlog of fall enrollments, and we are using all 
available resources to ensure veterans receive their education benefits 
for the spring terms accurately and on time. To further ensure veterans 
who enroll in the spring term receive their benefits on time, VA set a 
goal, one that we are confident we can achieve, to process any 
enrollment certification we receive before January 19, 2010, for 
payment by February 1, 2010.
Long-Term Solution
    VA partnered with the Space and Naval Warfare Systems Center 
Atlantic (SPAWAR) to develop an end-to-end claims processing solution 
that utilizes rules-based, industry-standard technologies for the 
delivery of education benefits. This is our Long-Term Strategy for 
implementing the Post-9/11 GI Bill. The Post-9/11 GI Bill includes 
numerous eligibility and entitlement criteria and contemplates benefit 
determinations that can best be made using rules-based technology that 
requires minimal human intervention.
    VA's automated IT system is scheduled to be released in four phases 
to ensure robustness and stability. Release 1 of this effort is to 
replace the current functionality of the interim solution and eliminate 
the need for external job aids to process Post-9/11 GI Bill claims. 
Release 2 will provide automated data feeds for both claim and veteran 
information. Release 3 will provide automated data feeds into the VA 
financial processing systems. Finally, Release 4 will provide a veteran 
self-service interface to view the status of claims.
    While Release 1 is scheduled for deployment on March 31, 2010, this 
release has been changed to a limited ``pilot'' release, which will 
deliver the capability to complete original claims; automatically 
calculate awards including tuition and fees, housing, books and 
supplies, Yellow Ribbon, Montgomery GI Bill-Active Duty and Reserve 
Educational Assistance Program kickers; and automatically calculate 
awards for overlapping terms and intervals. OI&T plans to deploy 
Release 1 to a limited set of claims processors to restrict the impact 
on the user community.
    VA expected Release 1 to also include the functionality to convert 
and transfer data from the interim processing solution to the Long-Term 
Solution in order to enter supplemental awards for a claimant after an 
original award was processed in the interim solution; process Transfer 
of Entitlement and Fry Scholarship claims; amend awards for increases, 
reduction, or terminations; and pay Post-9/11 GI Bill kickers and 
supplemental kickers.
    The above-mentioned modification from the reduced functionality in 
Release 1 is caused by a substantially increased appreciation of the 
complexity of amended awards. As our subject matter experts (SMEs) 
worked with the SPAWAR team new software requirements were identified, 
and it became clear these new requirements could not be incorporated by 
the March 31, 2010, milestone requirement. Under our Program Management 
Accountability System (PMAS), missing a milestone date has substantial 
consequences, and so a decision was made in conjunction with VBA to 
allow the delivery of reduced functionality in order to make the 
milestone date. Most importantly, as this will be the first delivery of 
software for the Long-Term Solution, I believe it is critical that real 
users begin to use the software for production work, as this is the 
only way to assure ourselves that the project is delivering an 
acceptable product.
    While complete functionality for the subsequent releases has yet to 
be determined, VA anticipates Release 2, to be delivered on June 30, 
2010, will include the remaining features necessary to migrate the 
claims processors off the interim processing solution. VA, OI&T, and 
SPAWAR will conduct meetings the week of January 25, 2010, to finalize 
the functional requirements for Releases 2, 3, and 4 of the Long-Term 
Solution. We still anticipate the successful delivery of all the 
functional requirements for the Long-Term Solution by December 2010.
Temporary Claims Examiners
    To support Post-9/11 GI Bill claims processing, VA hired 530 term 
employees under a 13-month authority that can be extended up to 4 
years. The term employees are part of VA's short-term solution until 
OI&T delivers the long-term claims processing solution. VA will 
routinely measure the impact the Long-Term Solution has on our ability 
to accurately and timely process Post-9/11 GI Bill claims.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or other Members of the Subcommittee may 
have.

                               __________
            [Text version of PowerPoint Slide Presentation]

          Post-9/11 GI Bill Long-Term Solution Implementation
                              January 2010
         U.S. Department of Veterans Affairs, Education Service
                            Washington, D.C.
                    Long-Term Solution Requirements
    <bullet>  VA enlisted SPAWAR to develop a rules-based automated 
Post-9/11 GI Bill claims processing system that includes and expands 
upon functionality provided by the interim solution.
    <bullet>  Key requirements

      <bullet>  Processing of original and supplemental Post-9/11 GI 
Bill claims, including Transfer of Entitlement (ToE) and Fry 
Scholarship claims.
      <bullet>  Automated calculation of all Post-9/11 GI Bill awards, 
including: tuition and fee payments, housing allowance, books and 
supplies stipend, and Yellow Ribbon payments; benefit program kickers; 
overlapping and interval terms, and award amendments.
      <bullet>  Retrieval of demographic and service data from VADIR.
      <bullet>  Interface to payment system for automated payments.
      <bullet>  Veteran Self-Service capabilities.
               Long-Term Solution Release 1 Functionality

------------------------------------------------------------------------
     Included Functionality               Delayed Functionality
------------------------------------------------------------------------
<bullet> Processing of original   <bullet> Conversion and data transfer
 Post-9/11 GI                                                      from
  Bill claims                                                 FET into LTS
<bullet> Automated calculation       <bullet> Processing of ToE and Fry
 of payment                                                    Scholar-
  awards (including tuition and                             ship claims
 fees,
  housing, etc.)                    <bullet> Processing of Supplemental
                                                                 claims
<bullet> Automated calculation          <bullet> Chapter 33 kickers and
 of overlapping                                            supplemental
  term and interval awards                                      kickers
<bullet> Demographic and         <bullet> Claims containing award amend-
 service data from
  VADIR                              ments (increases, decreases, etc.)
------------------------------------------------------------------------

                 Long-Term Solution Deployment Schedule
    <bullet>  LTS Limited Release 1, March 31, 2010--Pilot group of 
users processing original claims to evaluate the technology and 
reengineered business processes. Only original clean claims; no data 
transfer from FET; no Transfer of Entitlement (ToE) or Fry Scholarship.
    <bullet>  LTS Release 2, June 30, 2010--Replace Front-End Tool 
(FET) and Job Aid functionality, process ToE and Fry Scholarship 
claims, and receive data transfer from FET.
    <bullet>  LTS Release 3, September 30, 2010--Adds interface to 
financial accounting system.
    <bullet>  LTS Release 4, December, 2010--External interface to 
allow for veteran self-service for applications and claims management.
                           VA Future Staffing
    <bullet>  VA originally hired 530 term employees for 13-month terms 
that may be extended up to 4 years.
    <bullet>  VA will begin reducing term employee workforce in the 
first quarter of FY2011.
    <bullet>  VA will monitor the effectiveness and efficiency of the 
LTS to inform term employee reductions.
    <bullet>  VA will make a final determination on when employment 
terms should end based upon completion of LTS delivery.
                   VA Benefits During Spring Semester
    <bullet>  VA has received enrollment certifications for 90,604 
veterans, and has processed 61,595.
    <bullet>  VA has taken many steps to decrease the claims backlog, 
including:

      <bullet>  Awarding a 90-day claims assistance contract to ACS, 
Inc. for recommendations on non-33 claims.
      <bullet>  Redirecting 200 ARRA employees at regional offices 
nationwide to claims and payment functions.
      <bullet>  Implementing streamlining policies and procedures.
      <bullet>  Providing advance payments to individuals awaiting 
normal benefit payments.
      <bullet>  Continuing to utilize 230 ARRA employees hired through 
August 2009 for claims processing.
                        VA Requirements For LTS
    <bullet>  The VA has tasked SPAWAR SYSCEN Atlantic with developing 
the Chapter 33 Long-Term Solution (CH33 LTS) to replace the VA's 
interim solution for processing veteran education claims under the 
Post-9/11 Veterans Educational Assistance Act of 2008.
    <bullet>  By offering more ``self-service functionality,'' 
developing an accurate yet flexible rules engine, and implementing a 
Service-Oriented Architecture (SOA) infrastructure, the system will 
minimize manual intervention and maximize efficiency.
                        LTS Implementation Date
    <bullet>  It is expected that the Chapter 33 Long-Term Solution 
will be fully implemented by December 2010.
    <bullet>  This solution will deliver incremental capabilities using 
an Agile software development methodology with four planned releases to 
achieve full operating capability (FOC):

      <bullet>  Release 1 will improve upon existing claims-processing 
functionality;
      <bullet>  Release 2 will add automation and efficiency to claims 
and veteran data;
      <bullet>  Release 3 will add automation and efficiency to 
financial data; and
      <bullet>  Release 4 will improve upon the veteran/claimant 
experience with self-service features.
          POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD
                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   January 25, 2010

Mr. Mark Krause
Department of Veterans Affairs Program Manager
Space and Naval Warfare Systems Center
810 Vermont Ave., N.W.
Washington, D.C. 20420

Dear Mr. Krause:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on The Future of the Post-9/11 GI Bill Claims Processing System 
on January 21, 2010. Please answer the enclosed hearing questions by no 
later than Monday, February 22, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot
                               __________
                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
      The Future of the Post-9/11 GI Bill Claims Processing System
                            January 21, 2010
    Question 1: When you are finished, will VA own all the software and 
hardware?

    Answer: Yes, the Veteran's Administration, as a Federal entity, 
will own all SPAWARSYSCEN Atlantic purchased hardware, all government 
employee developed software, and all software license rights acquired 
in non-commercial software. Commercial software license rights acquired 
by SPAWARSYSCEN Atlantic transfer to the Veteran's Administration.

    Question 2: You state that you have developed the production 
hosting capabilities in a secure cloud computing environment with a 
secure network. Where in VA is this being done and where will the bulk 
of equipment reside?

    Answer: Currently, on behalf of the Veteran's Administration (VA), 
SPAWARSYSCEN Atlantic is leasing a dedicated cloud computing 
environment within a commercial hosting facility located in Culpepper, 
Virginia. The production environment is within a dedicated private 
cloud for the exclusive use of the VA. At the conclusion of the CH 33 
Long-Term Solution project, the VA can continue to pay for this 
commercial hosting service, or transition the application to one of the 
VA's data centers.

    Question 3: It is my understanding that the current system can only 
recognize the 2009 BAH rate and not 2010 at the same time, making it 
difficult for claims processors to provide veterans a more accurate 
rate. Will Release 1.0 be able to calculate the housing stipend using 
multiple BAH rates?

    Answer: Release 1.0 is a limited pilot release for new claims only. 
However, based on direction from the VA, to ensure consistency with 
claims processing until the CH 33 Long-Term Solution is fully deployed, 
Release 1.0 will use the same business rules as implemented in the CH 
33 interim solution for applying multiple BAH rates to housing 
allowances/stipend calculations.

    Question 4: When do you anticipate having the Web-based interactive 
training system completed and ready to be used as a training tool?

    Answer: Release 1.0 of the CH 33 Long-Term Solution Web-based 
interactive training system will be available to train the VA Education 
Service Training Team beginning 16 March 2010. Release 2.0 of the CH 33 
Long-Term Solution Web-based interactive training modules is scheduled 
to be available for the Veteran's Administration Education Service 
Training Team by 15 June 2010 to support the CH 33 LTS Release 2.0 
deployment.

    Question 5: How far along are you in testing the completed rules 
based engine?

    Answer: The commercial off-the-shelf rules-based engine 
infrastructure has been integrated into the CH 33 Long-Term Solution 
and is an integral component of the Release 1.0 capabilities. The 
business rules have been defined, fully tested and integrated into the 
LTS Release 1.0 application. As new business rules are incorporated 
they are being tested on a daily basis to validate the performance of 
the rules-based engine.

    Question 6: What problems do VA's legacy systems present for the 
new system?

    Answer:

      <bullet>  Many legacy VA capabilities were developed as stand-
alone solutions not intended for an Enterprise Architecture approach.
      <bullet>  Legacy systems are built on obsolete code without 
sufficient documentation and institutional knowledge which makes 
developing interfaces for the CH 33 Long-Term Solution challenging.
      <bullet>  Lack of standardized IT architectures and data 
structure across multiple VA and DoD systems creates challenges 
building systems interfaces for the LTS.

    Question 7: Can you elaborate on how Release 1.0 will: validate 
application performance, deployment strategies and expected changes to 
business operations?

    Answer: Application Performance--SPAWARSYSCEN Atlantic has worked 
with the Veteran's Administration to define the performance and demand 
requirements for the applications. We have designed the CH 33 Long-Term 
Solution with the appropriate infrastructure to support these 
requirements. In order to test/validate the application performance, we 
have developed performance models and will be conducting the necessary 
load testing. We will also integrate various application performance 
management tools to monitor and collect metrics to measure the 
performance of the production system.
    Deployment Strategies--We are planning to deploy Release 1.0 for 
use at each of the four Regional Processing Offices (RPOs) 
incrementally on a weekly basis. From a technical deployment 
perspective, we have deployed multiple virtual environments within the 
development and production cloud computing environments to support 
testing, pre-production, and production. We will capture lessons 
learned from the limited adoption of Release 1.0 to improve future 
release deployments to become more effective and efficient.
    Business Operations--Upon the deployment of Release 1.0 we will 
capture feedback from the RPOs to assess the impact and identify 
improvements to business operations. We will leverage lessons learned 
to help improve the operational performance of the RPOs in streamlining 
the adjudication of CH 33 claims.

    Question 8: Are you confident that VA will be able to maintain and 
update the system?

    Answer: Yes, we are confident the VA will be able to maintain and 
update the CH 33 Long-Term Solution.

    Question 9: How much training time will be needed to train the 
claim examiners?

    Answer: We expect it will take a week to train the Veteran's 
Administration (VA) Education Service Training Team Members (train the 
trainers) so they can train the Veterans Claim Examiners at the four 
RPOs. We defer to the VA to answer how long it will take them to train 
the VCEs, or how this training will integrate into their training 
processes.

    Question 10: For the system being developed today for VA, how long 
into the future will the system be useful and how difficult will it be 
to perform updates?

    Answer: Generally speaking, software applications that are well 
maintained and updated can continue to be useful for over 20 years. The 
Service Oriented Architecture (SOA) foundation the CH 33 LTS is built 
on will allow ``faster, better, cheaper'' updates and evolutions in the 
future.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                   January 25, 2010

The Honorable Roger W. Baker
Assistant Secretary for Information and Technology
U.S. Department of Veterans Affairs
810 Vermont Ave., NW
Washington, DC 20420

Dear Assistant Secretary Baker:

    I would like to request your response to the enclosed questions for 
the record and deliverable I am submitting in reference to our House 
Committee on Veterans' Affairs Subcommittee on Economic Opportunity 
hearing on The Future of the Post-9/11 GI Bill Claims Processing System 
on January 21, 2010. Please answer the enclosed hearing questions by no 
later than Monday, February 22, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 226-4150.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

JL/ot
                               __________
                        Questions for the Record
          The Honorable Stephanie Herseth Sandlin, Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
      The Future of the Post-9/11 GI Bill Claims Processing System
                            January 21, 2010
    Question 1: How many permanent and temporary employees is VA 
projecting it will need beyond 2010?

    Response: In FY 2011, the implementation of the long-term automated 
processing solution for Post-9/11 GI Bill claims will allow us to 
address the expected workload and improve claims processing timeliness 
with 1,521 direct permanent full time employees (FTEs). We will 
carefully measure the impact the Long-Term Solution has on our ability 
to accurately and timely process Post-9/11 GI Bill claims and make 
appropriate staffing adjustments.

    Question 2: You state that Regional Processing Offices (RPOs) have 
diverted resources to other areas. As we understand from staff who 
visited the Oklahoma National Call Center, employees are being 
transferred from their primary job to process claims. Why is this being 
done and how are the primary job areas being affected?

    Response: Timely delivery of education benefits is a top priority 
for VA. The backlog of education claims was driving call volume at our 
Call Center in Muskogee, Oklahoma to an all time high of 1.26 million 
call attempts during November. To help veterans receive their Post 9/11 
GI Bill benefits more promptly, VA trained existing phone technicians 
at the Education Call Center to process pending education claims. 
Nearly 80,000 claims were pending and timeliness measures were 
extremely high in December when VA decided to redirect phone agents to 
claim processing.
    On December 10, the Veterans Benefits Administration (VBA) 
redirected 155 Call Center employees to claims processing on Thursdays 
and Fridays, our lowest call volume days. These employees joined 1,032 
existing education employees nationwide in processing pending education 
claims for the fall and spring semesters. There is a direct correlation 
between pending claims and increased call volumes; the volume of calls 
exponentially decreases as we are able to pay more veterans.
    This temporary measure improved the timely processing of veterans' 
Chapter 33 claims, and resulted in a lower call volume and blocked call 
rate during the month of January 2010. On February 18, 2010, the Call 
Center resumed normal business hours 5 days a week.

    Question 3: VA received the third and final phase of the short-term 
solution on November 9, 2009 to process amended awards and overlapping 
terms. What delay did this create and was VA able to process amended 
awards and overlapping terms before November 2009?

    Response: The delay in deployment of the final phase of the interim 
solution caused a delay in issuing payment on amended awards and 
overlapping terms. These types of awards can now be completed with the 
same timeliness as all others. However, since the interim solution did 
not materially improve the speed of processing, the overall effect of 
deploying the final phase on timely distribution of checks will be 
moderate. VA expects to begin seeing significant improvements in 
timeliness with the deployment of Release 2 of the Long-Term Solution 
in June 2010.

    Question 4: In visiting the Call Center, it seems that most of the 
phone technicians were unable to make corrections when a veteran calls 
them based on regional jurisdiction. Why is this the case and is this 
being reviewed to permit them to make corrections?

    Response: VBA and the Office of Information and Technology (OI&T) 
are working to improve access across jurisdictions. The primary systems 
used by the education program are The Image Management System (TIMS), 
Benefits Delivery Network (BDN), and the interim solution. All systems 
are used to process and make corrections to claims. These systems are 
limited in the volume of users and the capability to cross RPO 
jurisdictional lines. Due to these system limitations, VBA developed 
internal processes that allow the Call Center technicians to expedite 
processing and make adjustments to claims identified as having 
financial hardships. Non-hardship claims are provided to the RPO of 
jurisdiction for normal processing.
    OI&T plans to make changes to TIMS and BDN over the next few months 
to improve response time and access for VBA staff. For BDN, OI&T has 
modified processor usage allocations to provide immediate relief to 
production activities. OI&T is also considering the following options:

    <bullet>  Add processors to increase the overall capacity of the 
system;
    <bullet>  Modify ancillary system programming to reduce the number 
of queries; and
    <bullet>  Schedule development, batch processing, and test 
activities that utilize BDN after normal business hours.

    The following improvements are planned for the TIMS application 
infrastructure:

    <bullet>  Upgrade application hardware storage;
    <bullet>  Shorten downtime for system backups by deploying faster 
tape devices;
    <bullet>  Balance the distribution of application functions across 
disk arrays to reduce input/output contention;
    <bullet>  Upgrade to a more stable version of Oracle;
    <bullet>  Allow claims folder access across jurisdictions;
    <bullet>  Monitor the application continuously for application load 
rebalancing;
    <bullet>  Secure additional application software licenses for 
additional users; and
    <bullet>  Determine potential to provide technical contract support 
on weekends.

    Question 5: The Call Center is currently opened from Monday to 
Wednesday during the week. Why is this schedule being followed and why 
can't the center open 5 days a week?

    Response: The timely delivery of education benefits is a top 
priority for VA. There is a direct correlation between the number of 
pending education claims and call volume. A high pending inventory 
equals a high call volume. Phone technicians spend a significant amount 
of time informing veterans that their claims are still pending. 
Reducing the pending inventory was a key factor in improving Call 
Center performance; therefore VA needed to find additional resources 
that could quickly have a positive impact on the pending inventory. 
Call Center technicians were familiar with VA systems and could be 
trained in claims processing faster than new hires. As a temporary 
measure, VA decided to close the Call Center Thursdays and Fridays to 
process more claims for veterans. Thursdays and Fridays are the lowest 
call volume days.
    Since the closure of the Call Center on Thursdays and Fridays, 
customer service and CH 33 claims processing performance improved 
significantly.

    <bullet>  Improved Customer Service

      <bullet>  The Call Center received 769,637 call attempts on 
Monday thru Wednesday during the first 2 weeks in December 2009. By 
comparison, the Call Center received 381,442 call attempts on Monday 
thru Wednesday during the first 2 weeks in January 2010. The overall 
call volume continues to trend down.

    <bullet>  Improvement in CH 33 Claims Processing Performance

      <bullet>  Call Center employees complete an average of 700 claims 
per day on Thursdays and Fridays, plus overtime. They completed 
approximately 18,000 claims.
      <bullet>  Pending CH 33 inventory is the lowest since August 
2009.
      <bullet>  Timeliness has improved by 13 days since the end of 
November 2009.

    VBA is making significant progress with processing the spring 
enrollments. Through March 4, 2010, VA has received spring enrollments 
for 200,384 veterans, of which 190,386 have been processed. The 
decision to supplement claims processing staff by the Call Center 
employees was a key factor in these improvements. Based on our 
progress, VA resumed normal business hours at the Call Center on 
February 18, 2010.

    Question 6: In visiting the Call Center, the employees mentioned 
that they needed dual monitors and a better phone system. Who in VA 
will be following up with the Call Center to get them the equipment 
they need?

    Response: The local IT staff received and installed 140 dual 
monitors for the Call Center employees. The issues with the current 
telephone system in Muskogee have been reviewed extensively. The 
primary issue involves the stability of the current Call Center call 
routing system, and will be resolved with the planned Veterans 
Relationship Management initiative that includes national call routing. 
The remaining issues involve difficulties with the local instruments 
and flexibility needed to meet mission needs. The local phone switch 
may need replacement, and options are being evaluated for the phone 
switch replacement and design.

    Question 7: You state that insufficient staffing levels caused 
problems. Do you believe that you have sufficient staff?

    Response: The insufficient staffing levels VA experienced during 
the fall enrollment period were remedied with the delivery of phase 
three of the interim claims processing solution, the utilization of 
ARRA employees to assist with the education workload, and the claims 
processing support provided for under the contract with Affiliated 
Computer Services. As a result of these efforts, VA has increased its 
daily completions of Post-9/11 GI Bill enrollment certifications from 
an average of 1,800 per day during October to the nearly 7,000 per day 
in February.

    Question 8: Has VA implemented any of the recommendations that were 
sent to VA from this Subcommittee on November 12, 2009?

    Response: VA has considered or implemented many of these 
suggestions and is working diligently to improve the efficiency of 
claims processing for veterans.
    VA initially encouraged claimants to apply early for benefits. We 
received an overwhelming response from veterans, including those who 
have no immediate plans to enroll in school. With the level of our 
current claims inventory for veterans already enrolled, we encourage 
individuals who are interested in receiving education benefits but not 
yet ready to attend school to wait until they have decided on a school 
and an educational program. This will allow us to focus on the claims 
of those who are currently attending school. Although our application 
process does not require an individual to positively state they are 
currently in school, we were able to identify those students for whom 
we received certifications of enrollment through our data systems. This 
allowed our processing offices to prioritize processing for those 
veterans.
    We also contacted school officials to encourage them to submit 
enrollment information as quickly as possible, since VA cannot process 
payments until we receive verification from schools that the student is 
enrolled.
    We agree that VA should inform veterans that they should expect to 
receive their first housing allowance and book stipend in arrears. 
Although payment of these benefits is consistent with other VA benefit 
payment practices, there is a need to raise awareness about when to 
expect these payments. Earlier last fall, we issued a news release, 
sent a letter to schools, and posted information to our networking 
sites to explain the payment policy.
    VA informs veterans of the potential benefit of applying for 
additional Federal education programs that could enhance their VA 
education benefits. We are working with the Department of Education to 
share information about programs available to veterans. Our GI Bill 
Website also features links to several Federal financial aid sources.
    VA conducted extensive outreach to inform veterans of the Post-9/11 
GI Bill. Each individual identified in our data files as having 
potential eligibility was mailed two letters last year. North American 
Precis Syndicate published articles for VA, as well as a television 
spot. We also entered into a contract with a marketing firm to develop 
a national media campaign, which will be ready by summer 2010. The 
marketing firm will explore ways to enhance VA's Website and create the 
kind of interactive features suggested in your letter.
    Veterans receiving educational assistance under the Montgomery GI 
Bill program are required to certify their school attendance each 
month, but those receiving Post-9/11 GI Bill benefits are not. VA's 
interim payment system does not support a monthly verification process 
for Post-9/11 GI Bill. However, VA's future payment system, which 
should be fully deployed in December 2010, is expected to utilize a 
monthly enrollment verification process. VA will propose a change to 
existing regulations to coincide with our ability to support a monthly 
verification process.

    Question 9: The VA made advance payments to over 113,000 veterans. 
Do you anticipate issuing advance payments this semester if veterans do 
not receive their benefits for the spring 2010 semester?

    Response: Because spring enrollment certifications are being 
processed timely, VA is not making advance payments for the spring 2010 
semester.

                                 <all>

</pre></body></html>
